Audit of USAID/Peru’s Family Planning
Program

Audit Report No. 1-527-01-009-P

July 27, 2001




     Regional Inspector General / San Salvador
U.S. Agency for
 INTERNATIONAL
 DEVELOPMENT

RIG/San Salvador


July 27, 2001


MEMORANDUM

FOR:               USAID/Peru Director, Thomas L. Geiger

FROM:              Regional Inspector General/San Salvador, Timothy E. Cox

SUBJECT:           Audit of USAID/Peru's Family Planning Program (Report No.
                   1-527-01-009-P)

This memorandum is our report on the subject audit. In finalizing the report, we
considered your comments on the draft report. Your comments on the draft report
are included in Appendix II.

The report contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1
Table of   Summary of Results                                    3
Contents

           Background                                            4


           Audit Objective                                       5


           Audit Findings                                        5


                  Did USAID/Peru adhere to Tiahrt provisions?    5


           Management Comments and Our Evaluation                7


           Appendix I – Scope and Methodology                    8


           Appendix II – Management Comments                    10




                                                                     2
Summary of   The House of Representatives’ Committee on Appropriations directed the Office of
Results      Inspector General to perform an audit of USAID/Peru's family planning program
             with respect to the Tiahrt amendment. Therefore, the Regional Inspector
             General/San Salvador conducted an audit to determine whether USAID/Peru
             adhered to Tiahrt amendment provisions (see page 5).

             The following four provisions of the Tiahrt amendment apply to USAID/Peru:

             1. Family planning service providers shall not implement or be subject to quotas.

             2. Family planning projects shall not pay incentives to family planning providers
                nor to family planning service users.

             3. Family planning projects shall not deny benefits or services to individuals who
                do not choose to participate in family planning activities.

             4. Family planning projects shall provide family planning users with
                comprehensible information on health benefits and risks of the family planning
                method chosen (see page 4).

             For the items tested, USAID/Peru adhered to Tiahrt amendment provisions. We
             visited 32 health facilities and interviewed 158 patients and 32 family planning
             providers. We found no exceptions to Tiahrt amendment provisions.
             Furthermore, we found that all 32 establishments displayed information on
             informed consent (see page 5).

             In order to adhere to Tiahrt amendment provisions, the mission utilized the
             following management controls:

             •   Compliance surveys of users of family planning services.

             •   Incident reports from the Peruvian Human Rights Ombudsman.

             •   Assignment of a full-time USAID employee to monitor Tiahrt compliance.

             •   Establishment of a senior management committee to oversee Tiahrt-related
                 issues.

             •   Training for health care providers.

             •   Standard provisions in agreements with Peru’s Ministry of Health (MOH) and
                 with other organizations requiring Tiahrt compliance (see pages 5-7).




                                                                                                  3
                            In addition, the Peruvian Ministry of Health has issued family planning standards
                            that incorporate the restrictions included in the Tiahrt amendment (see page 7).

                            Mission officials concurred with the findings and conclusions of our audit. There
                            were no recommendations requiring corrective action (see page 10).



Background                  Beginning with fiscal year 1999, legislation funding foreign assistance activities has
                            included several stipulations that are collectively known as the Tiahrt amendment.
                            This amendment contains several provisions designed to prohibit the use of federal
                            funds in coercive family planning programs.

                            The Tiahrt amendment states that voluntary family planning projects shall meet the
                            following requirements:1

                            1. Family planning service providers shall not implement or be subject to quotas.

                            2. The project shall not pay incentives to family planning providers nor to family
                               planning service users.

                            3. The project shall not deny benefits or services to individuals who do not choose
                               to participate in family planning activities.

                            4. The project shall provide family planning users with comprehensible
                               information on health benefits and risks of the family planning method chosen.

                            USAID also is required to report to congressional committees any violation not less
                            than 60 days after the Administrator of USAID determines that a violation has
                            occurred.

                            USAID/Peru’s family planning program is part of its strategic objective entitled
                            “Improved Health for Peruvians at High Risk.” The mission provides family
                            planning assistance through the Ministry of Health, which has family planning
                            services at approximately 6,200 establishments throughout the country. The mission
                            also provides funding to seven non-governmental organizations (NGOs). These
                            NGOs operate 30 permanent establishments in Peru.

                            The mission’s fiscal year 2001 family planning expenditures through June 30, 2001
                            were $6.6 million, according to USAID/Peru.


1
  An additional requirement that experimental contraceptive drugs and devices and medical procedures be provided only in the
context of a scientific study in which participants are advised of potential risks and benefits is not applicable for USAID/Peru
since the mission does not have any programs dealing with experimental contraceptive drugs and devices and medical
procedures.



                                                                                                                                   4
Audit Objective The House of Representatives’ Committee on Appropriations directed the Office of
                    Inspector General to perform an audit of USAID/Peru's family planning program
                    with respect to the Tiahrt amendment. Therefore, the Regional Inspector
                    General/San Salvador conducted an audit to answer the following audit objective:

                    h      Did USAID/Peru adhere to Tiahrt amendment provisions?

                    Appendix I describes the audit's scope and methodology.




Audit Findings      Did USAID/Peru adhere to Tiahrt amendment provisions?

                    For the items tested, USAID/Peru adhered to Tiahrt amendment provisions.

                    To determine if there were any violations of the four Tiahrt amendment provisions
                    noted in the background section above, we interviewed 158 patients and 32 family
                    planning providers at 32 hospitals and health centers throughout Peru. We found no
                    exceptions. In other words, for the persons we interviewed, production quotas were
                    not used, no incentives or financial rewards were offered, no rights or benefits were
                    denied, and comprehensible information on the benefits and risks was provided.

                    In order to adhere to the Tiahrt amendment provisions, the mission utilized the
                    following management controls:

                    •   Compliance surveys of users of family planning services.

                    •   Incident reports from the Peruvian Human Rights Ombudsman.

                    •   Assignment of a full-time USAID employee to monitor Tiahrt compliance.

                    •   Establishment of a senior management committee to oversee Tiahrt-related
                        issues.

                    •   Training for health care providers.

                    •   Standard provisions in agreements with Peru’s Ministry of Health (MOH) and
                        with other organizations requiring Tiahrt compliance.

                    The mission has contracted with the Population Council to conduct surveys in order
                    to detect Tiahrt amendment violations. These surveys included interviews with
                    family planning service providers and users as well as anonymous site visits. In
                    2000, eight violations were found which USAID/Peru reported in accordance with


                                                                                                            5
the Tiahrt amendment. The Population Council is finalizing a second report on year
2000 activities which will be issued in August 2001. Results will be followed up,
and if the mission determines that a violation occurred, the mission will report the
violation to the Congress as required.

Peru’s Constitution has established an independent Human Rights Ombudsman, an
organization with the broad mandate of defending constitutional rights, ensuring that
the government complies with its duties, and overseeing the provision of public
services to Peruvians. The Human Rights Ombudsman has received USAID
funding since 1996, and according to the mission, USAID/Peru has trained
Ombudsman staff on Tiahrt amendment requirements. Specifically, in the area of
reproductive rights, the Ombudsman educates the population on women’s
reproductive rights, investigates abuses, and seeks to uncover unlawful practices
through health center visits. In previous problem-prone areas, it has disseminated
posters and pamphlets, held workshops, and communicated via other mass media
outlets. The Human Rights Ombudsman reports to the mission on its investigations
and activities. In the event that the Ombudsman confirms a violation, it has been
instructed to notify the mission immediately. According to the Ombudsman’s
Special Defender of Women’s Rights, no complaints to the Ombudsman from
July 1, 2000 to March 31, 2001 have been substantiated as Tiahrt violatio ns.

The mission has hired a full-time employee to monitor Tiahrt compliance. Her work
plan originally included making site visits to health facilities, interviewing providers
and patients, giving workshops, and working with the Peruvian Human Rights
Ombudsman. Since she did not find any violations after visiting 20 sites over two
months, her duties have more recently been focused on working with the Population
Council, following up on issues with the Human Rights Ombudsman and assisting
the MOH on quality of care issues.

The mission has created a task force composed of senior mission officials. They
meet on an as-needed basis to follow up on Tiahrt-related issues. For example, they
meet to assess the effectiveness of monitoring activities, to pursue additional options
for gathering information on Tiahrt violations, and to discuss issues pending with the
Population Council and the Human Rights Ombudsman.

The mission has a program called “Coverage with Quality” that provides training to
MOH health care providers on family planning methods including providing
comprehensible information and obtaining informed consent before providing
services. The program started in September 1996 and is scheduled through
September 2003. During fiscal year 2001, $1.3 million has been spent on this
program.

The mission has included in its agreements and contracts with the MOH and with
other organizations a standard provision to help ensure that they comply with Tiahrt
amendment provisions.



                                                                                       6
                 In addition, the MOH has issued family planning standards that incorporate the
                 restrictions included in the Tiahrt amendment. For example, the standards require
                 “the informed and personal consent of the user.” The standards further stipulate
                 that:

                 •   incentives will not be offered to persuade a person to use any contraceptive
                     method;

                 •   deceit or hiding information is prohibited;

                 •   all forms of pressure, coercion, violence, or manipulation are prohibited;

                 •   quotas or goals will not be used;

                 •   incentives, bonuses, or sanctions will not be given;

                 •   other services will not be denied users who do not choose to participate.

                 The MOH’s initiative to inform family planning providers and patients of their rights
                 was evident in that all 32 establishments we visited had a copy of the MOH’s family
                 planning standards. We observed that all the facilities had posters illustrating the
                 principle of informed consent. Posters were also displayed showing a variety of
                 family planning options. In addition, family planning services were segregated from
                 other services provided at the establishments.

                 The mission also complied with the Tiahrt amendment requirement that the
                 Administrator report any violation and the corrective action taken within 60 days to
                 the Congress. In December 2000, the mission learned of eight violations. In
                 January 2001, as required by the Tiahrt amendment, the Administrator sent a report
                 to Congress describing the violations and the corrective actions taken.




Management       Mission officials concurred with the findings and conclusions of our audit. There
Comments and     were no recommendations requiring corrective action. Mission comments are
Our Evaluation   attached in their entirety as Appendix II.




                                                                                                        7
                                                                                     Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted an audit, in accordance
              with generally accepted government auditing standards, to determine if
              USAID/Peru adhered to Tiahrt amendment provisions.

              We reviewed the management controls used by the mission to monitor
              compliance with Tiahrt amendment provisions. Major controls included surveys
              of users of family planning services, incident reports from the Peruvian Human
              Rights Ombudsman, a full-time USAID employee to monitor Tiahrt compliance,
              and a senior management committee to oversee Tiahrt-related issues.

              We visited 31 of approximately 6,200 Ministry of Health (MOH) facilities and
              1 of 30 non-governmental organization (NGO) facilities.

              The audit was conducted at USAID/Peru and at health facilities throughout Peru
              from June 28, 2001 through July 13, 2001.

              Methodology

              In answering the audit objective, we ascertained whether the mission had developed
              a structure to receive information about Tiahrt violations and to act on that
              information.

              In order to test these aspects of the mission’s monitoring system, we interviewed
              officials and reviewed and tested documentation at USAID/Peru. Such
              documentation included cooperative agreements, work plans, employee
              agreements, Human Rights Ombudsman reports, compliance survey reports,
              Tiahrt committee meeting minutes, and MOH Family Planning Standards.

              We randomly selected 12 hospitals for visits from a list of locations which we
              weighted based on MOH family planning usage statistics. Hospitals in Arequipa,
              the region affected by an earthquake on June 23, 2001, were excluded from the
              list of possible sites. Of the original 12 selections, two were excluded due to
              logistical difficulties and time constraints on the audit. The two sites that were
              excluded were replaced by two additional random selections. An additional 19
              MOH health facilities (two hospitals and 17 neighborhood clinics) and one NGO
              clinic were judgmentally selected based on timing (ability to arrive during peak
              working hours) and proximity to the randomly selected hospitals. At all facilities,
              we interviewed the health care provider on duty and judgmentally selected
              patients receiving services at the time of our visit. We approached patients either
              as they were waiting for services or as they were leaving their consultation and
              asked if they would be willing to participate in a survey. In summary, we



                                                                                                   8
                                                                       Appendix I

conducted surveys at 32 health facilities. We used this sample design in order to
cover as many locations as possible while completing the audit work in time to
issue the final audit report by July 31, 2001.

In the Human Rights Ombudsman’s office, the Special Defender of Women’s
Rights briefed us regarding investigations related to previous years’ complaints
and on-going activities to promote reproductive rights.

The Population Council briefed us regarding the methodology used to survey for
Tiahrt violations.

In determining compliance with Tiahrt provisions, we employed a materiality
threshold of zero exceptions. In other words, one violation would be considered
significant and would cause us to modify our answer to the audit objective.




                                                                                    9
                                                                                                         Appendix II




Management
Comment




U.S. AGENCY FOR
INTERNATIONAL
 DEVELOPMENT




                                                                   July 25, 2001


        Mr. Tim Cox
        Regional Inspector General
        San Salvador

        Dear Mr. Cox:

        Thank you for the opportunity to comment on the draft "Audit of USAID/Peru's Family Planning Program".

        We agree with the report's conclusion that USAID/Peru and the Peruvian Ministry of Health have adhered
        to the Tiahrt Amendment requirements. This conclusion reinforces similar findings from our own internal
        control mechanisms and the conclusions of a recent GAO audit (GAO-01-0, October 2000)


        We would like to add that USAID has made an effort to comply with Congressional report language
        requesting detailed reporting on the situation of the USAID-support family-planing program in Peru. In
        addition to the formal Tiahrt violation report sent to Congress in January 2001, USAID sent a biannual
        report to Congress ion July 16, 2001, with an update on Peru. In addition, USAID/Peru staff members
        have traveled to Washington twice in the last fourteen months to report in detail to interested members of
        Congress and staffers.

        With USAID support, the Government of Peru has made dramatic strides in terms of protecting family-
        planing clients' rights to voluntarism and informed consent. The Government of Peru is this not simply
        because our law requires it, but because they are convinced that it is the right thing to do. In short, the
        Government of Peru has learned from the problems of the past and is now committed at all levels so
        providing high quality voluntary family planing services to the clients who seek them.



                                                                   Sincerely


                                                                   Thomas L. Geiger
                                                                   Director
